<html>
<title> - [H.A.S.C.  No.  114-132]AIR DOMINANCE AND THE CRITICAL ROLE OF FIFTH GENERATION FIGHTERS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                              
                        [H.A.S.C. No. 114-132]

    AIR DOMINANCE AND THE CRITICAL ROLE OF FIFTH GENERATION FIGHTERS

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 13, 2016

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
20-819                     WASHINGTON : 2016                      
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b6c7b644b687e787f636e677b2568646625">[email&#160;protected]</a>  

  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      HENRY C. ``HANK'' JOHNSON, Jr., 
PAUL COOK, California, Vice Chair        Georgia
BRAD R. WENSTRUP, Ohio               TAMMY DUCKWORTH, Illinois
JACKIE WALORSKI, Indiana             MARC A. VEASEY, Texas
SAM GRAVES, Missouri                 TIMOTHY J. WALZ, Minnesota
MARTHA McSALLY, Arizona              DONALD NORCROSS, New Jersey
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
THOMAS MacARTHUR, New Jersey         MARK TAKAI, Hawaii
WALTER B. JONES, North Carolina      GWEN GRAHAM, Florida
JOE WILSON, South Carolina           SETH MOULTON, Massachusetts
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tsongas, Hon. Niki, a Representative from Massachusetts, 
  Subcommittee on Tactical Air and Land Forces...................     2
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Carlisle, Gen Herbert J. ``Hawk,'' USAF, Commander, Air Combat 
  Command, U.S. Air Force........................................     3

                                APPENDIX

Prepared Statements:

    Carlisle, Gen Herbert J. ``Hawk''............................    25
    Turner, Hon. Michael R.......................................    23

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Tsongas..................................................    37
    Mr. Young....................................................    37
    
 
    AIR DOMINANCE AND THE CRITICAL ROLE OF FIFTH GENERATION FIGHTERS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                          Washington, DC, Wednesday, July 13, 2016.
    The subcommittee met, pursuant to call, at 2:50 p.m., in 
room 2212, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. The hearing will come to order. The 
subcommittee meets today to receive testimony on the need for 
air dominance and the critical role of fifth generation strike 
fighters. I want to welcome our distinguished witness for 
today, General Herbert J. ``Hawk'' Carlisle, Commander of Air 
Combat Command [ACC], United States Air Force. General 
Carlisle, we thank you for your service, and we look forward to 
hearing from you in your testimony today.
    This hearing is the second of two important oversight 
hearings this subcommittee has held this year on the 
requirement of air dominance and the critical importance of 
fifth generation fighters in addressing current and emerging 
threats.
    At our previous hearing held at the National Museum of the 
United States Air Force at Wright-Patterson Air Force Base on 
June 18, the witness, Major General Jerry Harris, the Vice 
Commander of the Air Combat Command, showed us a striking 
picture of one-half of an F-35 Joint Strike Fighter and one-
half of a Chinese J-31 fighter juxtaposed jointly, appearing 
together. The similarities were shocking. It looked like one 
aircraft and left no doubt in anyone's mind that our 
adversaries are working very hard to challenge America's 
continued air dominance with fifth generation fighter programs 
of their own.
    The last time the U.S. Air Force lost an aircraft in aerial 
combat was in 1972 when ``DESOTO 03,'' an F-4E supporting 
Operation Linebacker II, was shot down by a North Vietnamese 
MiG-21. The advanced aircraft now under development by Russia 
and China signal their objective to end our 44-year advantage.
    At the previous hearing, General Harris also noted that new 
surface-to-air missile systems now incorporate technologies 
allowing engagement at further ranges and in greater numbers. 
The sensitivity and accuracy of these new systems has also 
increased concerns regarding the unrivaled ability of our 
aircraft to access targets from anywhere, at any time.
    Challenges to America's air dominance do not all originate 
from foreign shores. Some challenges are internal to the Air 
Force and the Department of Defense [DOD]. And one of the 
biggest challenges our Nation needs to overcome is the small 
size of today's Air Force.
    For example, in 1991, during Operation Desert Storm, our 
Air Force had 134 fighter squadrons. Today, we are down to only 
55 fighter squadrons. While the Department of Defense is no 
longer required to be able to defeat regional adversaries in 
large-scale campaigns on two fronts, we are losing our ability 
to do so on just one. We only produced 187 fifth generation F-
22 aircraft. But that number was 194 aircraft short of the 
requirements for 381 F-22s. Unfortunately, the decision to stop 
F-22 production was a strategy driven by budgetary goals rather 
than one driven by the need to obtain a required capacity.
    We don't want to make that same mistake with F-35 
production that we made with our failure to produce enough F-
22s. That is why the House-passed National Defense 
Authorization Act [NDAA] for Fiscal Year 2017 added 5 F-35As to 
meet last year's Air Force F-35A budget plan for 48 aircraft in 
fiscal year 2017, an unfunded requirement identified by the Air 
Force Chief of Staff. The House bill also added additional F-
35Bs and Cs for the Navy and Marine Corps, also unfunded 
requirements identified by the Navy and Marine Corps.
    April 15, 1953, is a significant date for the U.S. Air 
Force. It is the last time U.S. ground forces were killed as a 
result of enemy air attack when a North Korean P02 biplane 
strafed an Army tent on an island off the Korean peninsula. In 
the last 63 years, American air dominance has relentlessly 
safeguarded the lives of our Air Forces, provided freedom of 
maneuver and freedom from attack. I am confident we will do so 
now and in the future, but we must remain committed to 
providing the necessary resources to provide this capability, 
capacity, and readiness necessary to accomplish the critical 
mission of maintaining air dominance.
    I would like to now recognize my good friend and colleague 
from Massachusetts, Ms. Niki Tsongas, for her opening comments.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 23.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
  MASSACHUSETTS, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Ms. Tsongas. Thank you, Mr. Chairman. And good afternoon to 
you, General Carlisle. I am sorry we kept you waiting a little 
bit. But thank you so much for your service to our country and 
for being here to talk with us about this very important topic. 
Because what does bring us here today is the recognition that 
our Nation's Air Force faces a growing set of diverse and 
complex challenges around the world. To meet these threats and 
to maintain air dominance, the United States needs an Air Force 
with a range of capabilities to counter increasingly contested 
air environments and fighter advancements being developed by 
our adversaries. As we all know, the Air Force is in the midst 
of an ambitious modernization program driven, in part, by the 
age of many of its major aircraft fleets. Today, four major 
programs are in procurement, and five more are in research and 
development.
    This is long overdue, as many airpower priorities have been 
deferred over the past decade in favor of ground force 
investments due to our engagements in Iraq and Afghanistan. 
Simultaneously, replacing such advanced programs is never easy. 
But this job is certainly made harder by the constraints placed 
on the Air Force by the Budget Control Act and a series of 
unpredictable budget deals over the past several years. In this 
resource-constrained environment, I look forward to hearing 
more today about how the Air Force prioritizes its major 
modernization programs, and how it aims to achieve a balanced 
set of capabilities to meet emerging threats. In addition, I 
hope to hear what Congress, we in Congress, might be able to do 
to help solve issues you are facing. I look forward to your 
testimony. Thank you for being here, and I yield back.
    Mr. Turner. Thank you. General Carlisle.

STATEMENT OF GEN HERBERT J. ``HAWK'' CARLISLE, USAF, COMMANDER, 
               AIR COMBAT COMMAND, U.S. AIR FORCE

    General Carlisle. Chairman Turner, Ranking Members, and 
distinguished members of this subcommittee, it is a distinct 
pleasure to be here today with you to have this discussion. 
Thank you for the opportunity to discuss the importance of air 
superiority. As commander of Air Combat Command, I am 
responsible for many of the combat missions that our Air Force 
takes on. However, air superiority deserves special attention. 
It is the top stage setter for success on the battlefield; the 
mission that the Air Force must take on first and the Air Force 
mission that we must do right 100 percent of the time.
    I am grateful the subcommittee shares an interest. And I am 
certain that our concern will advance the capabilities 
presented to combatant commanders. Future U.S. Air Force air 
superiority demands a full-spectrum force with capability 
beyond opponents, capacity to defeat emergent threats, and 
ready for worldwide deployment any time.
    Currently, under BCA [Budget Control Act], I am unable to 
resource all three pillars of that mission: capability, 
capacity, and readiness. The Combat Air Force, to include air 
superiority, has been a bill payer in the last five budget 
cycles. For example, F-35 combat squadrons will be reduced from 
a planned 32 squadrons in 2028 to 16 in 2028.
    The U.S. Air Force is the smallest, oldest, and busiest we 
have ever been. We are successful on the backs of our airmen. 
We prioritize the current fight at the expense of preparing for 
high-end operations. Today, our fighter force is less than 50 
percent combat ready for full-spectrum operations. Our newly 
appointed Chief of Staff stated the most pressing challenge is 
the rise of peer competitors with military capabilities 
rivaling our own. Formerly accessible areas to the United 
States are now contested as Russian S-400 missiles and China's 
J-20 and J-31 aircraft are fielded. Our main air-to-air missile 
entered service in 1991. And our fifth generation aircraft 
still employ those fourth generation weapons, like the AMRAAM 
[Advanced Medium Range Air-to-Air Missile].
    Our fifth generation fleet can only consist of F-22s until 
we reach sufficient numbers of F-35s to add to that fifth 
generation capability. Total F-35A requirement remains 1,763 
aircraft, based on acquisition schedules on a projected fighter 
service life. An annual production of 60 F-35s right now 
strikes the right balance between cost and capability and the 
legacy aircraft aging out.
    Looking further, we really must start now to devise our 
next generation answers and our next generation capability. We 
recently completed the Air Superiority 2030 Enterprise 
Capabilities Collaboration Team that concluded that there is no 
silver bullet solution, but, in fact, a multi-domain family of 
capabilities is ultimately the way we need to project and the 
way we need to win the fight in the future.
    I look forward to an ongoing partnership with this 
subcommittee. And I thank all of you very much and the members 
of this entire committee for their dedication to air 
superiority the mission, our Armed Forces, and to our entire 
Nation. I welcome any questions from the committee chairman and 
everyone else on the committee. And I respectfully request my 
written testimony be entered into the record. Thank you very 
much for your time today. And it is an honor and a privilege to 
be here with you to answer any questions you might have. Thank 
you, Mr. Chairman.
    [The prepared statement of General Carlisle can be found in 
the Appendix on page 25.]
    Mr. Turner. General, thank you. I have got a couple real 
quick questions that relate to issues that we are going to be 
facing in conference with this 2017 National Defense 
Authorization Act. And I would like your perspective to assist 
us in the negotiations over those provisions. One is that some 
have advocated that the F-35 Joint Program Office [JPO] be 
disestablished 180 days after the Milestone C decision in 
fiscal year 2019. Would Air Combat Command be in favor of 
devolving the JPO responsibilities to the services after 
Milestone C?
    General Carlisle. Sir, that is not something that we are in 
favor of. I truly believe that the JPO, the Joint Program 
Office for the F-35 has done a tremendous job. And they have 
done a very difficult job with three separate services as well 
as our partner nations, and FMS [foreign military sales] 
customers that are purchasing the aircraft. I do believe that 
the program office will evolve and change and there will be 
added responsibilities and added requirements on the individual 
services and their program offices.
    So what I believe is the right answer for the future is an 
evolution of the Joint Program Office to one where some of 
their responsibilities and some of the things that are done are 
done by individual--either by the U.S. DOD, or by individual 
services. But the program office, I believe, still needs to be 
intact.
    Mr. Turner. Well, it certainly is a system that is 
currently working. And it does seem as if the risk would be too 
great to devolve that to the services.
    General Carlisle. Yes, sir.
    Mr. Turner. In addition, then some have advocated that the 
F-35 follow-on modernization program be treated as a separate 
major defense acquisition program, or MDAP. We had this issue 
in our markup, and it is not included--it was offered as an 
amendment. We realize that this generates from a GAO 
[Government Accountability Office] study, but the information 
that caused the House side to not adopt this policy decision 
was that it would cost about $13 million and delay Block 4 
capabilities to the warfighters by 6 to 12 months. What are 
your thoughts and considerations concerning a major defense 
acquisition program for the modernization?
    General Carlisle. Mr. Chairman, I do not believe we should 
have a separate major defense acquisition program for the Block 
4 update. It is incredibly critical that we get that 
capability. And delaying it only moves our capability to defeat 
potential threat to the future farther to the right. So with 
respect to time from an operator's standpoint, I truly believe 
we need to keep that as the program as part of the overall F-35 
program, mostly because of the time. The fact is, and the JPO 
is better equipped to answer that, but it looks like it would 
add money and time. And both of those are things that we really 
can't afford to do.
    Mr. Turner. Money and time are both elements that this 
program has been criticized for. To take an administrative 
bureaucratic step that increases those certainly would impact 
the overall program. I appreciate your comment.
    You know, General, actually my hometown newspaper in Ohio 
reported on a poll that had been done in Ohio, stating that 60 
percent of the people were not in favor of the F-35. They were 
in favor, instead, of modernizing existing aircraft, pitting 
the F-35 against modernization programs for our current 
inventory. Obviously, in our prior hearings, it has been 
addressed that that is an impossibility, that one cannot 
modernize the existing aircraft in order to accomplish what is 
necessary with the capability of the F-35.
    But clearly, we are still missing something, General, that 
the overall public in getting that phone call on the poll still 
does not understand that the leap that the F-35 is going to 
provide, and the risk of what our adversaries are developing 
and that the F-35 will face. How can you help us with that 
today?
    General Carlisle. Mr. Chairman, we have to be better at 
telling the story. The fact of the matter is that our 
adversaries have seen how successful we are. They have watched 
what has happened over the past 25 years. And they know if we 
dominate the airspace, that we can win any conflict and that we 
can be overwhelmingly lethal against adversaries. They know 
that and they are trying to counter that. And that is why you 
see things like you mentioned in your opening statement about 
the J-31, the J-20, the PAK FA from the Russians, the S-400, 
follow-on to those missiles. People know what we can do when we 
have air dominance. And they are trying everything in their 
power. And if we stay at our current technology, then we are 
just ceding that ground to our adversary, and we can't afford 
to do that. It would be--I mean, to take an analogy, if you 
took an old 1980s flip phone and tried to turn it into an 
iPhone 6, you can't do that. It is just not capable.
    And if you look at the capabilities that the F-35 brings, 
it is centrifusion; it is low observable capability; it is a 
situational awareness for the pilot in the cockpit that is an 
order of magnitude different than its predecessors. And that is 
something you can't build onto or retrofit back into a previous 
generation airplane. You really need to go to the next 
generation.
    Mr. Turner. General, thank you. Turning to Niki Tsongas.
    Ms. Tsongas. Thank you, General. And to follow up on Mr. 
Turner's question and observation, I think we all appreciate, 
or have come to appreciate the difference that the Joint Strike 
Fighter will make. But conveying that to the average citizen, 
who really may not even understand what air dominance is, and 
how this new generation of airplane helps to achieve that, that 
is the challenge I think we all face here, especially in light 
of all the cost issues that have emerged, how long it has taken 
to develop this great capability. So, I think it is a tough 
one. And I think something that is worth considering how to 
better communicate the challenges we have and the difference it 
makes.
    General Carlisle. Yes, ma'am. I couldn't agree with you 
more. And I will tell you that part of it is us and the United 
States Air Force. We have to be better at telling the story. 
And I just got back from the Royal International Air Tattoo 
where we had both an F-35B and an F-35A. And it really does 
showcase the capabilities of the airplane and what it can do. 
We could talk about it with our partners and our FMS customers 
over there.
    I think, you know, to some extent, frankly, we have been a 
little bit victims of our own success, because you see what has 
happened over the past 25 years, and we have had air dominance. 
But it has been from a lower capability threat. And we know 
that if you look at a resurgent and an increasingly aggressive 
Russia, you look at what is going on in the South China Sea and 
the East China Sea. If you look at what is going on with Iran 
and the weapon systems they are buying, all of those point to 
the fact that our adversaries know what we are capable of and 
they are doing everything in their power to counter it. We have 
to be better at telling that story, ma'am.
    Ms. Tsongas. I think that is true. I just wanted to return, 
though, to a slightly different question, and that is that of 
maintaining a diverse array of capabilities as you do seek to 
modernize. So recently, General, the Congressional Research 
Service indicated that four procurement programs accounted for 
99 percent of the Air Force's aircraft acquisition budget in 
fiscal year 2016. And over the next several years, the Air 
Force plans on transitioning other important programs into 
procurement, including the JSTARS [Joint Surveillance Target 
Attack Radar System] recapitalization program as well as other 
modernization priorities. So my question is, General, I am 
curious about your thoughts about the Air Force's plans to 
invest more resources into bringing these programs online while 
continuing to acquire current programs that have proven 
susceptible to cost increases, as we know, higher than 
predicted operations and sustainment costs and other delays.
    General Carlisle. Yes, ma'am. Well, clearly, I think in the 
acquisition cycle and the procurement and setting requirements 
and holding requirements steady, we have to continue to get 
better. And in some of those cases, those cost increases were 
not necessarily a program problem, but as things changed--when 
program--acquisition programs get drawn out, then things change 
over time with respect to adversary technology and adversary 
capability and our own.
    So, I think we really do have to get better at holding 
requirements steady and making the acquisition process more 
agile and flexible, so we can make--we can acquire programs 
kind of in the timeline we want to, on budget and on schedule, 
and make that schedule agile and flexible to make that happen.
    Clearly, I think if you look at what has happened in the 
past 20 to 25 years, we kind of ended up in a position where we 
kind of stopped procuring in the 1990s. Frankly, we--in the 
peace dividend, the world changed drastically after--if you 
look at the air war over Serbia, our allied force combined with 
what happened on 9/11, that kind of changed the focus to a 
large extent, and we have concentrated pretty significantly 
with respect to investment on the current fight we are in.
    At the same time, we see the adversary capability grow with 
the potential adversaries out there. So I believe that we have 
to prioritize. I think our nuclear enterprise has to be part of 
that. I think our space enterprise has to be part of that. I 
think our cyber enterprise has to be part of that. But we also 
have to modernize our capability to do the core function of the 
United States Air Force. And one of those is air dominance.
    So modernization of F-22, procurement of F-35 weapons, and 
new generation weapons, and the right number of weapons to 
complete the task we need to. We have to prioritize those and 
then we have to figure out what the Nation wants us to do and 
what resources we need to be able to get to that point.
    Ms. Tsongas. Well, it is a daunting set of challenges in 
the face of very real fiscal constraints. And none of those 
things is inexpensive.
    General Carlisle. No, ma'am.
    Ms. Tsongas. So I don't envy you with your challenge. With 
that I yield back.
    Mr. Turner. Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman. As chair of the dinosaur 
caucus, some of my questions might reflect that I have been on 
this planet for a while. I am a little concerned about the F-
35. And, you know, I am all in on it and everything like that, 
but I stated, as a dinosaur, that, you know, supportive of the 
A-10. I really like the F-22, because of its proven track 
record. I know there has been some conversation about reopening 
that line again, particularly if the F-35 has more problems. 
And even, you know, the U-2 and things like this. I am not 
advocating bringing back the P-51 or the P-47 or the P-38. But, 
you know, the B-52 is still flying around.
    So conversation on the F-22, there has been some talk about 
that. And I think it will come up again if the F-35 has some 
problems. And, as I said, in the dinosaur caucus, I support 
those aircraft that have a proven track record. So I really 
like it-- you know, I am not a pilot. I don't know anything 
about it. You know, I can't even spell airplane. But can you 
comment on some of the conversations about the F-22 because----
    General Carlisle. Yes, sir.
    Mr. Cook [continuing]. I liked it.
    General Carlisle. It is a fantastic airplane. It is 
absolutely the greatest air dominance airplane in the world 
today by an order of magnitude. Sir, I will tell you, first of 
all, the last person in the world that wants to get rid of any 
airplane in the United States inventory is Hawk Carlisle. I 
don't have enough capacity today. So, I love the fact that we 
are keeping airplanes around. And the fact of the matter is in 
the case of the A-10 that you talk about, it is a fantastic 
airplane. It does go a little bit to Congresswoman Tsongas' 
challenge, though, is how do you fit it all underneath the top 
line. You know, when we look at what we are challenged with, we 
are challenged with capability. So we have to get to that next 
generation capability, i.e., F-22s and F-35s, and eventually a 
B-21.
    At the same time, we have to maintain capacity to meet all 
the demands around the world that are being asked from us. And 
I will tell you, with the world situation, those demands are 
going up. We average 10 fighter squadrons deployed at any given 
time 100 percent of the time in the United States Air Force, 
which is a huge commitment.
    And then we have to maintain readiness. Our pilots and our 
maintainers and our airplanes have to be ready if something 
should happen be it anywhere in the world. So that is the 
balancing act we have to get to. The F-22 is a fantastic 
airplane. And as General Welsh said before he departed, I don't 
think it is a crazy idea to restart it. I do think that we 
probably would not bring an F-22 back in the form it is today. 
I think that is technology that is 30 years old, frankly. I 
think you may look at what the F-22 has and look at something--
additive technology or things that you could potentially do 
different if you brought it back. The challenge with bringing 
it back, certainly in its current form, is the amount of time 
it would take to bring the subcontractors back on the line, get 
the tooling back up, start producing the airplane. What kind of 
cost that would be and how long it would be until you could get 
them. But I do believe that there is a potential, maybe, to 
look at what we have learned in the F-35 and what we have 
learned on the F-22. And maybe there is something in an F-22-
like capability that we could bring that is the next 
generation, and the next capability and the next technology.
    And the last thing I will say and then I--obviously I have 
a lot of opinions on this--is the F-35 is a fantastic airplane. 
It really is doing well. It is actually ahead of where the F-22 
was in the same point in development that the F-35 is today and 
the F-22 was 10 or 11 years ago.
    So I will tell you, I am very confident in that airplane. I 
am very close to declaring initial operational capability in 
that airplane because I believe in it. And the progress we are 
making, and the progress we have made even in the last year, is 
really tremendous. So I have confidence in it and I am very 
confident that we are not going to have additional problems in 
that airplane.
    Mr. Cook. Well, thank you, General, for addressing that. 
The other thing, and I mentioned this before. You know, with 
the Canadians backing out of the F-35 buy, and who knows who 
would have predicted the U.K. [United Kingdom] and its 
political decision and everything like that. I am just a little 
nervous or worried about people that have committed as part of 
this buy, because it is going to influence the price and 
everything like that. And I am just hoping no one else decides 
to--who is going to pick up the slack and whether we could 
trust them or what have you with such an exceptional aircraft, 
if you could briefly comment on that.
    General Carlisle. Yes, sir. So, Congressman, I just spent 
the last week talking to many of our partners again. It was 
great out at the Royal International Air Tattoo at Fairford to 
have F-35Bs and F-35As flying there. We brought them over. We 
actually had the airplanes in country. They did fantastic. And, 
you know, I talked to the head of the Royal Canadian Air Force, 
and he thinks that decision is still open. He believes in the 
F-35, and from a military standpoint, he thinks his government 
is still potential. They are in a kind of competition now. 
Instead of a done deal, they are in a competition with some 
fourth gen [generation] airplanes.
    And I will tell you the other thing, sir, that I spent a 
lot of my career in the Pacific. And if you look at Australia 
and Japan and Korea and Singapore, I think that market for that 
airplane is going up. I believe there is more and more 
enthusiasm, belief in it, and support for it. And talking to 
both the outgoing air chief from the Royal Air Force and the 
incoming air chief is they are going to buy 138, and my guess 
is they will buy more than that. And I think they will have a 
mix of both F-35Bs and F-35As at the end of the day.
    Mr. Cook. Thank you. I yield back.
    Mr. Turner. Mr. Johnson.
    Mr. Johnson. Thank you, General, for your service. And 
thank you for being here today. Is there anything critical 
about the F-22 to our tactical air superiority at this--as we 
proceed into the future? Is there anything critical about it?
    General Carlisle. Sir, there is. And that is, to continue 
the modernization. The airplane is a fantastic airplane, but as 
with everything, technology is evolving. We have a 
modernization program that includes some capability. We are 
continuously making our aircraft better. We are in a drop on 
the flight profile that is 3.2, that if you have seen what the 
F-22 has done in the Operation Inherent Resolve, it is just 
fantastic. We have been dropping SDBs, small diameter bombs, 
with great accuracy from that airplane. We have been able to 
penetrate airspace that other airplanes couldn't penetrate. So 
the criticality in the F-22 program today is to continue to 
modernize it, is to continue to add that capability as things 
go along, even the things that, like, low observable 
maintainability.
    In the F-35, we developed this capability to rapidly take 
panels on and off and not have to do the whole low observable 
cure time in what is called a mighty boot, which is a 
capability to just put the parts back on. We are taking that 
from the F-35 and adapting that to the F-22, again, to continue 
those airplanes to maintain that, the greatest capability that 
we possibly can. So the one that I would really ask for is to 
maintain the modernization program.
    Mr. Johnson. And as we maintain that modernization program, 
would there be any need that you would see that we would need 
to take the training jets and convert them to combat capable 
aircraft?
    General Carlisle. Sir, I would love to do that. I would 
love to take the 43rd Fighter Squadron's jets down at Tyndall 
and upgrade them. They were very early model airplanes. And, 
again, with the production line shut down, we have to look at 
what the cost is to that. If it was a cost that was within 
reason and with everything else that I am trying to do I could 
do, I would consider doing that. We are, right now, looking 
very hard at what it would take to upgrade those airplanes to 
be in the most latest--latest block capability. And we will 
look at that cost and we will come back, obviously, to this 
committee and the Congress and talk about what the cost is and 
then what the benefit. But the more combat capable F-22s I 
have, the much happier I will be.
    Mr. Johnson. Thank you. The F-35 procurement rates, are 
they sufficient to meet the requirement to reduce risks in 
potential combat with near-peer adversaries or in lower-risk 
combat environments?
    General Carlisle. Sir, not yet. We need to get there. I 
believe that the number we need to get to is 60 a year. And I 
would like to do that as quickly as I can. We are not there 
yet. Some of the decisions to reduce the buy earlier were smart 
because we had--in the development of that program, we had a 
thing called concurrency where we were buying them and 
developing them at the same time. That is some of the early bad 
press that the F-35 got was we had a concurrency issue. So we 
slowed the buy rate to fix those problems, and we will go back 
and retrofit those early airplanes.
    I believe now we are at the point where we can increase 
that buy rate, because those problems have been fixed and we 
don't see any coming in the future, and we have gotten through 
the concurrency part. So I believe that as soon as we can get 
to 60, the better.
    Again, we are not there yet. We truly appreciate this 
committee and the House adding airplanes in the current budget. 
I am very much in favor of that. And, again, I would like to 
get to 60. Ultimately, I would like to get to 80 a year. But 
again, within all the priorities of the Air Force, we have to 
find out if--how we can fit that in. And there is so much going 
on in the recapitalization that that is the challenge that we 
will face.
    Mr. Johnson. Thank you. As you mentioned in your testimony, 
the F-35's weapon system is a prime example of a weapon system 
with the ability to process large amounts and multiple sources 
of data. Clearly, these capabilities would create a significant 
advantage over our adversaries in the way that we track, 
target, and engage our enemies. Could you further elaborate on 
how the F-35 weapon systems work, and also, how do we ensure 
that the funding of this aircraft and its technology become a 
priority in the defense budget?
    General Carlisle. Yes, sir. The modern airplanes, like the 
F-35 and the F-22, and, in many cases, things like the next 
generation RPAs [remotely piloted aircraft] that we are going 
to develop over time, they are Hoovers for information. They 
just suck up tons of information because of the fused sensor 
suite and the amount of data they are able to collect and fuse. 
We need to get that information off board and take advantage of 
it for the entire capability from the tactical edge all the way 
back to the command and control and the decision makers.
    In ACC, we are working very hard on what that networking 
and that off-board capability looks like in a thing called the 
combat cloud. And it is really about data to decision. So we 
take data. We use big data machine to machine, and we are able 
to use that in a security capability in a networked environment 
so that we can get that back to decision makers as well as to 
all the platforms in the tactical arena so everyone has the 
best information, and we can defeat our adversaries by knowing 
more sooner than they do and be able to react and force them 
into defensive mode. And we are very much doing that with the 
F-35. And, again, the F-35, F-22 both provide that capability. 
And we are working hard to make that happen.
    With respect to the F-35, sir, we are--the place we are at 
in the program now, the Air Force is very close to initial 
operational capability or combat capability. And we are 
continuing to put that at the forefront of priorities to make 
sure we take advantage and we continue to develop that airplane 
and get to the Block 3F, which is ultimately the interim block 
we want to get to.
    Mr. Johnson. Thank you, sir. And I yield back.
    Mr. Turner. Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman. I think--okay. Thanks. 
Ms. McSally. Did you want to go first?
    Mr. Turner. We had a joint dueling passing of time, and so, 
yes, I took Ms. McSally's signal to yield to Mr. Gibson.
    Mr. Gibson. The dinosaur caucus here. Oh, thank you very 
much. General, thanks for your service. And, you know, as the 
chairman mentioned, you know, we are in now the beginning 
process of the conference. So, you know, your testimony already 
is very timely and insightful. Thank you for that. Related, 
later this summer, I will be going out on a trip. And, you 
know, we are going to be focusing in on the European 
Reassurance Initiative. Mr. Cook will be going on it and some 
others. And so I am interested in hearing from you in the same 
vein or the same theme of telling the story, help us from your 
vantage point, explain what a CONOP [concept of operation] 
would look like that would be responding to--of course, we are 
in an unclassified setting, but help me explaining this to my 
constituents on how the Air Force fifth generation, how this is 
all put together as part of the joint team to be able to deter, 
and then if necessary conduct an operation. So I am interested 
in hearing that from the--initially, the European perspective, 
but then any reinforcing that is brought to bear in the 
unclassified setting.
    General Carlisle. Yes, sir. And I would be more than happy 
at some point to come back and talk to the committee at a 
classified level as well, if that is something that the 
committee would so desire.
    So the capability that those airplanes bring is the ability 
to penetrate airspace. It is also a great messaging tool. 
Recently, we did what was called a Rapid Raptor where we 
deployed unannounced 12 F-22s to the European theater, and we 
moved them around the European theater, and they worked in 
coalition with fourth generation aircraft, like A-10s and F-15s 
and F-16s. Hugely, hugely successful deployment. It is a 
deployment that demonstrates a capability. A deployment that 
demonstrates resolve. And it is a deployment that demonstrates 
that we can put these airplanes where we want them when we want 
them there, in order to accomplish the mission.
    Very much in the near future, after we are operational with 
the F-35s out of Hill Air Force Base, I would like to do that 
with the F-35s as well. One of the things that in Europe that I 
just talked to General Scaparrotti, the EUCOM [European 
Command] commander, and General Gorenc, the USAFE [U.S. Air 
Forces in Europe] commander, we would like to have F-35s, for 
example, do some Baltic air policing, where that is one of the 
missions that NATO [North Atlantic Treaty Organization] does up 
in the Baltic regions, in Estonia and Latvia and Lithuania, in 
that part of the world and put F-35s to demonstrate.
    As I talked to the air chiefs over in Europe in this past 
week, all of them are very interested for their own countries 
to be able to see the visibility of that airplane out doing 
operational missions. Just like the F-22, getting the F-35 out 
there operationally conducting missions is very important. So--
and the other part about the F-22 and the F-35, and the F-35 
will be another example of this, it makes every other airplane 
on the battlefield that much better. It raises everybody's game 
because of the situational awareness it provides, the 
capabilities it can bring to bear, and the ability to change 
the fight with not--with a combination of fifth generation and 
fourth generation airplanes. So as we go forward, I think that 
is what we have to continue to demonstrate and then talk to 
people about it, what we can do with that, sir.
    Mr. Gibson. Thank you. And if I can just follow up on that 
comment, your conversations with the Supreme Allied Commander 
of Europe, and I am interested to know, in relation to some of 
the things you have done and what you are looking to do, the 
dynamic of how you think this is impacting--I mean, part of 
what we are trying to do obviously is reassure our allies, but 
we also want to see them bring more to the table here. We know 
we all need to step it up with regard to this. So in relation 
to the Air Force's piece of this and, you know, the increased 
experimentation in exercises, have you seen any change in the 
dynamic of the discussion of our friends and allies?
    General Carlisle. Sir, I have. And I will tell you, I will 
caveat it a little bit, because it is usually--I am usually 
talking to military members. And they love it when we come 
over. We put F-22s into Amari, Estonia, which was a tremendous, 
tremendous capability. We do the same with--we put A-10s in 
there. We put them into Romania, as well as on the--we flew 
with them in Germany. We just had a trilateral exercise at 
Langley Air Force Base where the French brought out Raphaels. 
The British, the RAF [Royal Air Force], brought out Typhoons 
and they flew with our F-22s. The more we do that, the more 
reassuring it will be for those nations, the more reassuring 
for their political as well their population. And I think if 
you--especially in Europe, and the same thing if you go to the 
Pacific, because what has happened in the South China Sea, and 
obviously the information that--the ruling that was just passed 
on by the International Court, all of those things, the tension 
that exists in the Pacific and in Europe with the things that 
are going on, the fact that we bring fifth generation 
capability, we interact and they are interoperable with our 
friends and partners makes it--makes all those nations 
significantly more comfortable. And they truly, truly 
appreciate us being out there with this capability to 
interoperate with them.
    Mr. Gibson. I thank you for this, for enlightening us with 
regard to how we go about telling the story. And then I will 
just have my staff follow up with your staff before our team 
goes out on the CODEL [congressional delegation]. We will want 
at least like a laydown, maybe a brief. That wouldn't require 
you time----
    General Carlisle. Oh, no, sir. We would love to do that. 
Yeah, just let us know and we can talk about what we are doing, 
what we are doing in the future, and some things we are looking 
at. Be more than happy to do that.
    Mr. Gibson. Thank you, General, and thanks for your 
service. I yield back.
    General Carlisle. Thank you, sir.
    Mr. Turner. Ms. Graham.
    Ms. Graham. Thank you, Mr. Chairman. And thank you so much, 
General. I represent Tyndall Air Force Base.
    General Carlisle. Fantastic place. I spent a lot of time 
there.
    Ms. Graham. You did?
    General Carlisle. Yes, ma'am.
    Ms. Graham. It is a phenomenal place. And I had the 
opportunity to go up on a training mission with the F-22. I was 
in a T-38. Don't worry. I wasn't flying the F-22. And it is 
just an incredible, incredible airplane. I mean, I just can't 
even begin to describe what it can do in the air. It was 
amazing. And I am also very interested in the F-35. One of my 
earliest CODELs was to Eglin to learn about the F-35. Recently 
been down to Homestead Air Force Base in South Florida. They 
are potentially--I think they are in the running--I want to----
    General Carlisle. They are for one of the Guard units.
    Ms. Graham. Yes. Exactly. For F-35s. And if there is 
anything our office can do to help with information to 
encourage the placement of the F-35s there, of course, we stand 
ready to do that.
    General Carlisle. Yes, ma'am.
    Ms. Graham. That was a little plug, Mr. Chairman. He is not 
paying attention. But anyway, a question that your comments 
just brought to mind about the South China Sea, and I am 
actually getting ready to go on a CODEL to the RIMPAC [Rim of 
the Pacific] exercises.
    General Carlisle. Yes, ma'am. I participated in them many 
times. A fantastic exercise.
    Ms. Graham. I can't wait. I am very, very excited. But I am 
very concerned about--I am glad that our allies feel that we 
are working together well, and they are having their knowledge 
of what we are capable of doing and working together. But what 
are those that wish to do us harm, you know, what are their 
capabilities? China, Russia, Iran, what are we facing with 
their development of the technology? Because we know that they 
are watching us. And I would be curious to hear what you had to 
say about that.
    General Carlisle. Yes, ma'am. I could spend a lot of time, 
so I won't go into too level of detail. They have watched our 
success, they know how good we are, and they know that when we 
are going with air dominance then we pretty much can dictate 
the fight below us in a major contingency operation. They are 
doing everything in their power. And as the chairman mentioned, 
that picture of an F-35 and a J-31 where you have half of each, 
you can tell that they are copying us. You look at the PAK FA, 
which is the T-50, the Russian version of a stealth aircraft, 
you look at the missiles and what they are doing, and they are 
doing--all of our adversaries are doing two things. And that is 
where we come up with the term anti-access/area denial. They 
try to deny our ability to get into an area, try to keep us 
from being able to deploy there, and then once we get there, 
trying to restrict our ability to operate within that airspace.
    F-22s and F-35s, in our modern systems what will eventually 
be B-21, the B-2, those are the answer to those challenges. And 
they are going to continue to modernize, they are going to 
continue to, as we have seen from our adversaries' cyber, they 
will steal technology so they avoid the challenges that we 
faced. And again, if you look at the J-31 and the F-35, it is 
not too hard to understand that they are successful at that.
    So the answer, in my opinion, and what we are working on, 
is to continue to modernize, to continue to develop 
technologies, it is the third offset strategy that Secretary 
Carter talks about, and to continue to build on our capability. 
Because we as a Nation, and I truly believe this, I think many 
other nations, Russia and China in particular, copy very well. 
Original thought, they are not as good. And I believe that if 
you look at what our technology, what our industry does, what 
our airmen, sailors, soldiers, marines, and Coast Guardsmen can 
do, is take what we have and make it that much better. The 
greatest thing about watching F-22s and F-35s is handing them 
to captains and tech sergeants and seeing what they do with 
that capability. It exceeds anything we ever thought possible. 
And we are seeing that today in the F-35.
    So I really believe our key to those adversaries that are 
continuing to try to deny us that is to continue to work that 
technology edge, experimentation, prototyping, systems 
engineering early to put technology into capability and then 
turn it over to our young men and women that are incredible 
when they get the opportunity to take advantage of what we give 
them and make it better than we ever thought possible. But our 
adversaries are there. You need only look at what the Russians 
are doing and what the PRC [People's Republic of China] is 
doing, and the fact that both those nations are selling that 
capability to many other nations that would wish us harm 
throughout the world. So it is incredibly important that we 
continue to stay on that edge, ma'am.
    Ms. Graham. Yes. And I really appreciate your comments. And 
I met with a great group from Eglin yesterday in my office, 
airmen. And I don't have time for this now, but if you could 
help follow up with our team about where we are with ALIS 
[Autonomic Logistics Information System] right now----
    General Carlisle. Yes, ma'am.
    Ms. Graham [continuing]. I would appreciate that.
    General Carlisle. Be more than happy. We are successful 
with ALIS on the backs of our airmen. Again, they are making it 
work, but we have to give them the right answer.
    Ms. Graham. I understand. Thank you very much. I yield 
back.
    Mr. Turner. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. General Carlisle, 
good to see you again.
    General Carlisle. Good to see you again, ma'am.
    Ms. McSally. As an airman, I am concerned, as you stated, 
that we are a victim of our own success, and that we have had 
air dominance--I mean, it has been like 60 years really since 
the last time an American was attacked from the air because we 
have been showing through the amazing capabilities of our 
airmen that we can protect them. Gaining and maintaining air 
dominance is a challenging task, especially as we see our 
adversaries, which you just mentioned, closing that gap, not 
just in capability, but also in numbers. And we need this fifth 
generation capability, but as you mentioned, we have got the 
smallest Air Force since its inception.
    And at some point, quantity has a quality all of its own. 
And so, we did recently get a letter from a Deputy Secretary of 
Defense related to the numbers for F-35 staying with the total 
number, that 1,763 for the Air Force, saying it could go lower 
for budget reasons, or it could go up to keep pace with the 
threat. When I look at the threats, and we have had the 
briefings across the globe, and you have mentioned some of 
them, and we look at them in a classified level, I am deeply 
concerned about the numbers and our ability to be able to 
address varied simultaneous threats and have air dominance in 
all of them, all while our allies have dwindled in their 
budgets as well.
    So, can you comment on just the number, and is there--is 
someone looking at, are you looking at, and is there really a 
move to potentially increase the requirement in that number for 
the future?
    General Carlisle. Yes, ma'am. So I think that that is a 
great point. And the Air Force number is 1,763. And we believe 
that is the right number now. We are doing an analysis--and 
there is two different analyses going on. One was, initially 
the number was predominantly driven by replacement for aircraft 
that we're aging out. That number of aircraft that have aged 
out has shrunk with the reduction in the size of our force. As 
the chairman said, we went from 134 squadrons, combat coded 
fighter squadrons in 1991, to 55 today.
    So the number is smaller. But what we believe in Air Combat 
Command, and the Air Force believes, is that the number should 
be driven upon the threat and the environment that we are going 
to be asked to operate in. So I go to Congresswoman Tsongas's 
point, is we have to fit it all in there. But ultimately, this 
Nation and this body will determine what their military needs 
to be able to do, and then we need to have that capability in 
the systems to do that. I believe we are at the bottom edge of 
that. I think we need more capacity. If you look at what is 
happening in my force and how often I am rotating them through 
the Middle East, as well as the requirement I would have if 
something really bad happened with a near-peer competitor, be 
it a South China Sea environment, a Kaliningrad environment, or 
something to that effect, those two numbers, to me, is going to 
not only validate 1,763, it may be more and it may be what is 
next.
    And I mentioned it just briefly about potentially whatever 
is next in our next gen capability, whether it is an F-22-like 
and we take that capability or whatever comes out of that, we 
have to have the capacity to meet the demands of the combatant 
commander to do what this Nation asks us to do.
    Ms. McSally. I agree with you. And I realize you have 
constraints up the chain of command, but I think it would be 
helpful for us to know, based on the threat the number is this 
and then this is what we are saying we can afford, right, so at 
least we have an honest discussion and an understanding of 
numbers being driven by budget or driven by threats and 
capabilities. When it comes to--you mentioned we need a multi-
domain family of capabilities, I think, and right now, that is 
fourth generation. You know, we have the F-22 with old 
technology. As we have had meetings with a number of the 
combatant commanders and others, again in classified settings, 
there has been a discussion--is there a way for us to kind of 
have a 4.5 or a 4.3, you know, or maybe taking some F-16 Block 
50s and doing--I know you said you can't turn a flip phone into 
an iPhone. But is there anything we can be doing to augment the 
challenges we are having financially with the F-35 to, you 
know, create a 4.2 or 4.5 to augment so that we can have that 
multidimensional capability?
    General Carlisle. That is a great question. And ma'am, I 
guess my challenge is, I think modernization of fourth gen is 
important to continue to put that technology, just like it is 
for the F-22. I believe we need to continue to modernize fourth 
generation capability as well. The challenge that I would face 
is, if I bought new 4.5 generation aircraft, I don't know how I 
would do that and still buy fifth gen and what is next. You 
know, we are very close to getting the F-35 costs down into the 
$80- to $85 million, which is a very good cost for that 
airplane. And most fourth generation, or 4.5 generation 
airplane, would be in that same vicinity, in that same area.
    So I believe that the two things, from my perspective, that 
are most important is get the buy rate up on the F-35 so I buy 
them more quicker. That is as important as the end number is. I 
need to get to 60 if I can. And then we need to devise in a 
multi-domain is what is next? How do we continue to stay in 
front of our adversaries? How do we use space and cyber and 
surface and subsurface combined with air and the iCloud, the 
idea of the combat cloud technology to be able to defeat 
adversaries from different domains that they don't expect it to 
happen with the decision advantage inside of that.
    Ms. McSally. Thank you. Mr. Chairman, can I ask one more 
quick question?
    Mr. Turner. Sure.
    Ms. McSally. Okay. Thanks. I just want to go back to, I 
know this isn't a readiness hearing, but I think it is 
important just for a second for you to talk a little bit more 
about--you said less than 50 percent of our current fighter 
forces are ready to deploy for full range of combat missions, 
right? Less than 50 percent. Can you elaborate on that? You and 
I have talked about this a lot.
    General Carlisle. Yes, ma'am.
    Ms. McSally. Some of that is FMC [fully mission capable] 
rates; some of it is related to parts in older airplanes; some 
of it is related to pilot shortages. I mean, this is 
significant. If we had to go tomorrow and we needed air 
dominance for any of these scenarios, this is our main factor. 
So could you just comment on that? It is important.
    General Carlisle. Yes, ma'am. So there is a few different 
areas that we can address in the readiness. But at the end of 
the day, if you look at full-spectrum operations against a 
high-end adversary, less than 50 percent of our fighter force 
is trained, capable, ready, and resourced with the parts, the 
munitions, the maintenance manpower, to be able to fight the 
high-end fight. And, you know, people have asked, we have had 
readiness budgets--quote-unquote ``readiness budgets''--and 
people continually ask me, well, when are we going to be ready? 
When are we going to get back to that 80 to 90 percent 
readiness we need? And at the current state, we never will. We 
are treading water. We are not going backwards, but we are not 
making any progress.
    It is all those things. Because the capacity is so small, 
we don't have enough time. Because we are turning 10 squadrons 
over every 6 months into the Middle East as well as doing TSPs 
in the Pacific and TSPs in Europe, theater security packages.
    So time is a factor. We don't have enough people. We are 
trying to get that maintenance manpower back up so we can 
generate the sorties. And then the training. We have to keep 
the--we have to keep everybody trained. And if they are never 
home, or when they are home they don't have enough flying 
hours, you can't train them to that high-end fight. So right 
now we are treading water with respect to that.
    Ms. McSally. Thank you, General. Thank you, Mr. Chairman, 
for letting me indulge in that.
    Mr. Turner. General, I appreciate your great description of 
the need for the F-35, and obviously the problems we are 
facing. We just had today our conference committee on the 
budget. We appreciate your statements on the constraints that 
you are facing. And we are certainly trying to advocate for 
higher top-end numbers that can help address some of those 
constraints. With that, I want to thank you, General, for 
appearing before us. And we will be adjourned.
    General Carlisle. Thank you very much, Mr. Chairman.
    [Whereupon, at 3:42 p.m., the subcommittee was adjourned.]

      
=======================================================================




                            A P P E N D I X

                             July 13, 2016

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 13, 2016

=======================================================================

      

      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 13, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MS. TSONGAS

    Ms. Tsongas. General, as you may be aware, I have been concerned 
about the increasing rate of physiological events being experienced by 
F/A-18 aviators in the Navy. While I am not aware of any similar 
incidents as of late in the Air Force, many of us on this subcommittee 
remember how the F-22 fleet was impacted by a similar rate of events 
several years ago. Are you aware of any similar trends amongst the Air 
Force fleet?
    General Carlisle. The Air Force is aware of the increased rate of 
physiological events experienced by F/A-18 aviators in the Navy. The 
Air Force is participating in collaborative efforts with the F/A-18 
System Safety Working Group to determine root cause and corrective 
analysis. Since the F-22 Life Support System Task Force concluded its 
investigative effort and accomplished a requested congressional 
testimony, the Air Force has not experienced a rate of physiological 
events in any airframe that is comparable to that of the Navy.
    The Air Force did, however, see a relative increase in 
physiological events in the F-15C/D community that began shortly after 
a fatal crash in August 2014. Since fiscal year 2011, the community 
averaged approximately 5.3 hypoxic-like events per year. That rate 
increased to roughly 13 in FY 2015. Over the next 18 months F-15C/D 
pilots reported physiological events at an increased rate so, the Air 
Force chartered an Independent Review Team (IRT) to determine root 
cause/corrective analysis. Several factors with equipment and 
procedures unique to the F-15 were found and mitigation measures were 
identified by the IRT. F-15C/D event rates have normalized since May 
2016 following implementation of mitigation procedures.. The findings 
of both the F-22 and F-15 investigations have been captured and shared 
with sister services where applicable, and the Air Force continues 
collaborative efforts through system safety working group 
participation.
    Ms. Tsongas. General, one of the unique aspects of the F-35 is that 
it is essentially a very advanced sensor as well as being an advanced 
fighter. However, a sensor is only effective if it can talk to other 
platforms and pass the data it collects. What investments is the Air 
Force making in the other tactical fighters that will enable the force 
to maximize the capabilities of the F-35?
    General Carlisle. Link 16 is the designated primary tactical data 
link for exchange of information on the battlespace which the F-35 
participates. The ACC/A3, in Nov 2014, validated an operational 
requirement for additional capabilities on all AF Link 16 platforms 
(Concurrent Multi-netting, Concurrent Contention Receive and Link 16 
Enhanced Throughput). The increased network throughput provided by 
these enhancements supports the increased volume of information 
exchanges, such as the F-35 sensor information, to aid in prosecution 
of additional targets with greater success.
    Ongoing terminal modernization and platform implementation paths 
require a holistic, ``enterprise centric'' approach. Common 
implementation of these capabilities in the Link 16 terminals and 
integrated on AF platforms, including the F-35, reduces the risk of 
losing a shared common tactical/operating picture, situational 
awareness, and desired mission effectiveness.
    The Combat Cloud Operating Concept adds to the importance of the 
enterprise centric approach to future investments by describing the 
required capabilities needed to enable data sharing amongst the 
tactical edge platforms. The Combat Cloud concept for operations 
developed from a need for data sharing between 5th-to-4th and 4th-to-
5th generation fighter and bomber platforms that minimizes AF and DoD 
duplication of effort. The current CSAF directed Agile Comms 
Capabilities Based Assessment is tasked to develop a solution to 
implement a Combat Cloud that can operate in contested airspace in 
2025-2030, with primary focus on 5th gen platforms.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. YOUNG
    Mr. Young. One of the critical components of Fifth Generation 
fighters is the ability to fly in super cruise, or at above mach 1 
speeds without using afterburners. Can you discuss the importance of 
this capability specifically, as well as the importance of using this 
capability in training? a. How many range complexes in the country 
offer Fifth Generation fighters the ability to super cruise?
    General Carlisle. The time domain can be a weapon at the tactical 
level. It is advantageous to be able to employ air power more quickly 
over a larger area than our adversaries. However, the advantages go 
beyond getting somewhere faster or going further in the same amount of 
time. Supersonic speeds are also advantageous both in terms of 
survivability and lethality. In a defensive situation, speed can make 
targeting more difficult-- it confounds the solution required. 
Offensively, it provides additional kinematics to some of our weapons. 
When delivering air-to-ground ordnance, additional speed allows further 
employment ranges and much desired standoff from threats. In an air-to-
air engagement, additional missile kinematics allows: longer employment 
ranges, earlier shot opportunities, and/or shorter time of flight (i.e. 
the missile impacts sooner). All highly desired in an air to air 
engagement.
    The key to super cruise is the fact that the fighter does not 
require afterburners to fly supersonic. Afterburners are extremely 
inefficient. If a non-super cruise aircraft requires supersonic speed, 
it will use much more fuel achieving this airspeed and thereby reduce 
its range and/or time on station. Neither of which are desirable. 
However, a super cruise capable aircraft can retain it desired range 
and time on station while still reaping the tactical advantages of 
operating at supersonic speeds.
    Our mantra is to ``train the way you fight.'' The goal is to make 
the training as realistic as possible. The higher the correlation 
between training and combat, the better. This includes super cruise. 
The pace of an air to air fight is vastly quicker at supersonic speeds. 
If our airmen are not trained at this pace, they may ``get behind the 
jet'' and lose the fight. Our airmen must internalize this faster pace 
and be ready to execute instinctually. This can only be achieved 
through regular realistic training.
    Super cruise can be utilized in any airspace that allows supersonic 
flight. In general, the majority of the supersonic airspace is our many 
offshore/overwater ranges. However, the ability to train using super 
cruise over land is much more limited. This capability is limited to 
large training complexes such as the Nevada Test and Training Range 
(NTTR), the Utah Test and Training Range (UTTR), and Alaska's Joint 
Pacific Alaska Range Complex (JPARC).
    Mr. Young. As you are well aware, Alaska is home to the Joint 
Pacific-Alaska Range Complex (JPARC). According to many, this is the 
best airspace for training in the world. Do you agree with this? a. Is 
there any other training airspace better suited for training the full 
capability of Fifth Generation fighters than the JPARC? b. Why is the 
JPARC particularly suited for Fifth Generation fighters and what can 
and should be done to improve the capability of the range?
    General Carlisle. The Joint Pacific-Alaska Range Complex (JPARC) is 
certainly one of the best training ranges in the world. There are 
several attributes a training range must possess to fully enable Fifth 
Generation fighter training.
    One of the major capabilities of the F-22 is its' ability to super 
cruise or fly at supersonic speeds without the need for inefficient 
afterburner use. F-22s routinely execute tactics at supersonic speeds 
and rely on this capability to maximize our tactical advantage against 
our adversaries. Our forces must train realistically. This requires 
training at supersonic speeds. Outside the JPARC, the ability to employ 
at supersonic speeds is extremely limited. Currently the only airspaces 
available for supersonic training are limited to overwater/offshore 
ranges. This limits realistic air to surface employment. The Nevada and 
Utah Test and Training Ranges (NTTR and UTTR) are exceptions, but range 
time available is limited due to the high demand of supersonic overland 
airspace. It is also important to note that the areas within the NTTR 
and UTTR allowing supersonic employment is limited and does not 
encompass the entire range.
    When our Fifth Generation fighters employ at supersonic speeds, 
these speeds necessitate additional airspace to fully realize the 
tactical advantages of supersonic employment--range measured not in 
miles, but hundreds of miles. The JPARC has over 62,000 square miles of 
airspace. This is over five times larger in area than the NTTR and the 
UTTR. The JPARC's large size enables the CAF's Fifth Generation pilots 
to hone their combat skills in the most realistic environment possible.
    Unlike overwater/offshore ranges, the JPARC has several live air to 
surface employment areas. The ability for CAF pilots to employ actual 
ordnance following a combat representative profile is imperative to 
training, maintaining, improving, and validating our wartime 
capabilities.
    The overland nature of the JPARC also allows instrumentation. The 
JPARC has several portions that include instrumentation to provide 
time, space, and positional information for precise after action 
review. This ability to accurately review, assess, and debrief a 
mission is key to the USAF continuously updating and improving our 
tactics, techniques, and procedures (TTPs). In summary, the best 
training is the most realistic training. The JPARC enables the Fifth 
Generation forces to train at realistic speeds, employment ranges, to 
employ live ordnance, and is instrumented. This highly desired 
combination of attributes enables an extremely high correlation between 
training and combat. Thereby providing an environment for some of the 
best training in the world.
    As stated above, the JPARC is undoubtedly one of the best training 
ranges in world. If ones defines improving the ``capability of the 
range'' as improving both the capacity and realism of the range, then 
investment in Live, Virtual, and Constructive (LVC) infrastructure will 
provide the most impact. Live training is actual pilots flying actual 
aircraft. Virtual training is actual pilots flying virtual aircraft--
simulators. Constructive training is utilizing computer generated 
entities controlled by either a man-in-the-loop or autonomously by the 
computer. The lines that previously separated these training domains 
are beginning to blur. Technological advancements now allow airmen 
flying actual aircraft to train with airmen in simulators to a limited 
degree anywhere in the world, augmented by computer generated threats. 
This emerging capability leverages our Distributed Mission Operations 
(DMO), which links dislocated simulator sites together for mutual 
training, and our advanced datalink capabilities. By combining these 
capabilities/domains we can exponentially increase capacity by 
increasing participation via additional assets linked into the training 
scenario. An example would be live F-22s and F-35s flying on the JPARC 
training with an AWACS crew operating out of a simulator at Tinker AFB 
in Oklahoma. Adding constructive threats also increases realism. We can 
now ``inject'' constructive Surface to Air Missile sites (SAM), or 
threat aircraft to augment the training scenario's realism. An example 
would be adding constructive MiGs and advanced SAMs to the training 
scenario and datalinking to the live aircraft.
    Mr. Young. Can you please describe the importance of RED FLAG-
Alaska, and how it is different but complimentary to RED FLAG-Nellis?
    General Carlisle. Both exercises provide similar world-class air 
combat training for our Combat Air, Space and Cyber forces, sister 
services, and allied partners from over 30 countries. While similar, 
each has certain advantages that benefit USAF Air, Space and Cyber 
forces. In general, RF-N offers more high-end, multi-domain integration 
with Air Operations Center (AOC) support, while RF-A offers a range 
whose dimensions better satisfy 5th generation fighter requirements. 
Although both exercises incorporate Live, Virtual, and Constructive 
(LVC) elements to enhance training, more work is necessary to unlock 
its full potential. Current efforts to achieve a more logical and 
supportable ``strategic calendar'' may allow scheduling our forces to 
take advantage of what both exercises offer. Second order effects of 
this include better mutual support and deconfliction between the 
training squadrons that run the events, better/more flexible support 
from enabling units, and less travel burden on the operational units 
themselves.
    Mr. Young. Alaska will soon become the premier location for combat-
coded Fifth Generation fighters, with F-22s currently at Joint Base 
Elmendorf-Richardson and F-35s expected to arrive to Eielson Air Force 
Base in a few years. Can you talk about the importance of these 
aircraft training together, along with the 18th Aggressor Squadron at 
Eielson providing red air?
    General Carlisle. The combination of F-22s at Joint Base Elmendorf-
Richardson, F-35s at Eielson Air Force Base, the 18th Aggressor 
Squadron also located Eielson, and access to the Joint Pacific Alaska 
Range Complex (JPARC) sets the stage for some of the best training to 
be found anywhere. This is important because as the USAF modernizes our 
fleet with 5th generation capabilities our tactics, techniques, and 
procedures (TTPs) need to modernize as well. The ability for F-22s and 
F35s to easily train together will enable our combat forces to quickly 
develop and continuously fine-tune these TTPs. In Alaska we will be 
able to train locally on a daily basis without requiring travel to get 
this valuable training.
    Additionally, the collocated professional aggressor forces and 
access to the JPARC, one of the finest training ranges in the world, 
provides an optimum environment accelerating the development of these 
TTPs. The regular, repeatable, mixed-force training of our 5th 
generation forces in superb airspace, fighting the most capable 
aggressors will rapidly facilitate lessons learned that the entire CAF 
will apply and enable the USAF to remain the most capable and lethal 
force possible.
    Mr. Young. Further, given the large number of Fifth Generation 
fighters that will be based in Alaska--and a large amount of strategic 
airlift and Army airpower--does it not make sense to consider Alaska 
for the basing of the KC-46 tanker, especially given Alaska's 24/7 
NORAD Alert Mission? a. What's the timeline and what would help 
Alaska's candidacy?
    General Carlisle. The Strategic Basing process for the beddown of 
the KC-46 tanker is run by Air Mobility Command (AMC). We have 
forwarded AMC this request.
    Mr. Young. From an ACC perspective, can you comment on the 
potential negative impacts of not fully funding the weather shelter for 
the second squadron of F-35s in Alaska? a. Based on your extensive 
experience in Alaska, is it sensible to leave $270 million ($100M/F-35) 
out on the runway during the winter time in Fairbanks, where 
temperatures can reach -40 to -50 for weeks at a time? b. What effects 
do you think these extreme cold temperatures would have on the F-35s?
    General Carlisle. It is not prudent to leave the F-35 out on the 
ramp in extreme temperatures and doing so could have a significant 
operational impact if not protected. If the second squadron at 
Fairbanks cannot shelter their aircraft during the harsh winter months, 
there is the potential that the squadron would not be able to deploy/
employ in the timelines expected by PACOM.
    Possible effects of cold soaking the aircraft include broken lines/
seals, shorter times to perform maintenance tasks such as repairs, 
modifications, and inspections. In addition, the individual pilot and 
maintainer also have a limited exposure times due to the extreme 
elements that Alaska climatology presents.
    Mr. Young. It is clear that Russia is seeking to reassert its 
strength around the world, and specifically in the Arctic Region. Based 
on this resurgence, as well as an unpredictable North Korea and 
belligerent China, can you discuss the importance of positioning Fifth 
Generation fighters in the Asia-Pacific and Arctic Regions, and 
specifically in Alaska?
    General Carlisle. Positioning Fifth Generation fighters in the 
Asia-Pacific and Arctic Regions is of vital importance. Fifth 
Generation fighters will contribute directly to our Nation's defense in 
Alaska. Currently F-22s sit alert for Operation Noble Eagle and basing 
of other Fifth Generation assets will only increase our capability and 
capacity to deter Russian Long Range Aviation. Similarly in the Asia-
Pacific region these Fifth Generation fighters will act as a deterrence 
to both North Korea and China while protecting America's partner 
nations as well as strategic interests in the region.
    Mr. Young. Given these grave threats in the Asia-Pacific region, 
what will happen if the Department of Defense continues to delay its 
acquisition and modernization of fighter aircraft, and specifically 
Fifth Generation fighters?
    General Carlisle. Continuing to delay the acquisition and 
modernization of fighter aircraft, specifically Fifth Generation 
fighters will have serious consequences if conflict erupts in the Asia-
Pacific region. History has demonstrated that air superiority ensures 
victory. The U.S. military and coalition allies will face an anti-
access, area denial (A2AD) environment that will require a fifth 
generation fighter to achieve air superiority and enable us to hold any 
ground target at risk at a time or place of our choosing with precision 
and persistence. Fifth generation fighters offer first look, first 
shot, first kill through stealth, maneuverability, multi-role 
capabilities in addition to fused sensors and avionics. They also bring 
decision and reaction dominance, flexibility and survivability over our 
adversaries.
    Too small of a Fifth Gen fleet leaves the U.S. and our allies 
vulnerable to enemy attack. Additionally, too small of a Fifth Gen 
fleet eliminates the possibility of deterring an enemy bent on 
aggression. If we cannot establish Air Superiority, we cannot be 
successful in any of our missions, and our country and the free world 
will be placed in jeopardy.
    Due to the limited numbers of F-22s, modernization of capabilities 
remain crucial to ensure the Combat Air Forces continue to dominate 
adversary weapon systems that will be fielded in the near future.
    For six consecutive years, the F-35 has experienced cuts in planned 
procurement, resulting in reductions in combat coded squadrons from 32 
to 16 by Fiscal Year 2028. Delayed F-35 procurement forces the Air 
Force to extend legacy aircraft and accept increased readiness risk. We 
must find ways to reduce the time to field new capabilities.
    Equally important are advanced weapons for air-to-air and air-to 
ground combat employment. We must pursue and field cutting-edge weapons 
to realize full combat capabilities of Fifth Gen platforms.
    Delaying the modernization or acquisition of Fifth Gen fighters in 
the numbers necessary will increase operational risk to our forces and 
prevent our ability to achieve air superiority and provide global 
position attack capabilities to support our joint force, allies, and 
national interests.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
